6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Important Information Regarding Electronic
Communication
Read this information carefully and keep a copy
for your records
Prior to applying for a Carter's® Credit Card, Comenity Capital Bank requests your consent to provide you important information
electronically.
You understand and agree that Comenity Capital Bank may provide you with all required application disclosures regarding
your Carter's® Credit Card application in electronic form. These disclosures include, but are not limited to, Terms and
Conditions, the Credit Card Account Agreement and Customer Privacy Statement.
You agree to keep us updated at all times with your current contact information. If your contact information has changed
please contact us at 1-877-563-5767 (TDD/TTY: 1-888-819-1918).
This consent does not enroll you in paperless statements. In order to enroll in paperless statements, please visit Account
Center.
At your request, we will provide you with paper copies of these disclosures. You have the right to withdraw consent, without a
fee. Please call us at 1-877-563-5767 (TDD/TTY: 1-888-819-1918) to withdraw your consent to receive electronic disclosures.
In order to receive electronic communications and to obtain the best view of these communications you will need access to
the Internet, have a web browser which supports HTML, SSL-encryption, JavaScript, CSS, the capability to download and
print these disclosures, and Adobe Reader to view PDF files. You may download it for free at https://get.adobe.com/reader/.
Visit the Common Security Questions page for additional web browser information. By selecting the "Submit" button, you
confirm that your system meets these requirements and that you have the capability to access and download or print
electronic disclosures.
We recommend that you retain a copy of these disclosures for your records.
If this is a kiosk, this kiosk will display the disclosures listed above. Printed copies can be obtained at the customer service desk.
Note: Your Carter's® Credit Card account is issued by Comenity Capital Bank Please review Comenity Bank's Financial Privacy
Policy and Online and California Privacy Policy for more information. California Residents: Submit a Data Request Form to make a
https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

1/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Do Not Sell My Personal Information request.
Rate and Fee Summary
This Rate and Fee Summary (Summary) is part of the Credit Card Agreement (Agreement) for the Carter's Credit Card Account. Read it
and keep it.

Interest Rates and Interest
Charges
Annual Percentage Rate (APR)

25.99%

for Purchases

This APR will vary with the market based on the Prime Rate.

Yo u r d u e d a t e i s a t l e a s t 2 5 d a y s a f t e r t h e c l o s e o f e a c h b i l l i n g p e r i o d . W e w i l l n o t
H o w t o Av o i d P a y i n g I n t e r e s t

charge you interest on purchases if you pay your entire balance by the due date
each month. If you do not, you will not get a grace period on purchases again until
y o u p a y t h e e n t i r e b a l a n c e b y t h e d u e d a t e f o r t w o b i l l i n g p e r i o d s i n a r o w.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2 per credit plan.

For Credit Card Tips from the

To l e a r n m o r e a b o u t f a c t o r s t o c o n s i d e r w h e n a p p l y i n g f o r o r u s i n g a c r e d i t

Consumer Financial Protection

card, visit the website of the Consumer Financial Protection Bureau at http://ww

Bureau

w. c o n s u m e r f i n a n c e . g o v / l e a r n m o r e .

Fees
Annual Fee

Penalty Fees
• Late Payment
• Returned Payment

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

None

Up to $40
Up to $40

2/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

H o w W e W i l l C a l c u l a t e Yo u r B a l a n c e : W e u s e a m e t h o d c a l l e d “ d a i l y b a l a n c e ( i n c l u d i n g c u r r e n t t r a n s a c t i o n s ) . ” R e v i e w
your Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Agreement.
Wisconsin Residents: If you are married, contact us upon receipt of this Agreement at the General phone number in the How to Contact
Us section below and give us your spouse’s name and address.
P r i n t D a t e : T h i s S u m m a r y w a s p r i n t e d J u n e 2 0 2 1 . T h e i n f o r m a t i o n w a s a c c u r a t e a s o f t h a t d a t e b u t m a y h a v e c h a n g e d . To f i n d o u t m o r e ,
c o n t a c t u s a t t h e G e n e r a l m a i l i n g a d d r e s s o r p h o n e n u m b e r i n t h e H o w t o C o n t a c t U s s e c t i o n b e l o w.
I s s u e r N a m e : Yo u r C a r d i s i s s u e d b y C o m e n i t y C a p i t a l B a n k .
G o v e r n i n g L a w : T h i s l o a n i s m a d e i n U t a h a n d t h i s A g r e e m e n t i s g o v e r n e d b y U t a h a n d f e d e r a l l a w.
Rate Information: The following chart provides details on your rates as of the Print Date shown above. If this Agreement was provided
at point of sale, review the Agreement with your welcome package for variable rate information in effect within 30 days of mailing.

Purchases

APR

Daily Periodic Rate

Margin

25.99% (v)

0.0712%

22.74%

(v) = variable
Annual Fee: If there is an Annual Fee in the Fees table above, this fee will be charged with the close of your first billing period and
a n n u a l l y t h e r e a f t e r. W e w i l l r e f u n d t h i s f e e i f y o u c l o s e y o u r A c c o u n t w i t h i n 3 0 d a y s o f t h e m a i l i n g o r d e l i v e r y d a t e o f t h e s t a t e m e n t o n
which the fee appears. The fee is otherwise non-refundable.
Late Fee: If you do not pay the Minimum Payment by the Due Date, we charge a Late Fee. The fee is $29 if you were not charged a
L a t e F e e d u r i n g t h e p r i o r s i x b i l l i n g p e r i o d s . O t h e r w i s e , i t i s $ 4 0 . T h i s f e e w i l l n o t e x c e e d t h e a m o u n t p e r m i t t e d b y l a w.
Returned Payment Fee: If you make a payment that is not honored, we charge a Returned Payment Fee even if the payment is honored
on resubmission. The fee is $29 if you were not charged a Returned Payment Fee in the same or the prior six billing periods. Otherwise,
i t i s $ 4 0 . T h i s f e e w i l l n o t e x c e e d t h e a m o u n t p e r m i t t e d b y l a w.
Alternative Payment Method Fee: We may allow you to make an expedited payment over the phone. If you do, we may charge a fee.
C u r r e n t l y, t h a t f e e i s u p t o $ 1 5 . W e ’ l l l e t y o u k n o w t h e c u r r e n t f e e b e f o r e y o u a u t h o r i z e a n y p a y m e n t a n d y o u c a n w i t h d r a w y o u r r e q u e s t
if you don’t want to pay the fee.

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

3/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

M i n i m u m P a y m e n t : Yo u m a y p a y t h e e n t i r e A c c o u n t b a l a n c e a t a n y t i m e . Yo u m u s t p a y a t l e a s t t h e M i n i m u m P a y m e n t e a c h b i l l i n g p e r i o d
by the Due Date on your statement.
If the New Balance on your statement is less than $29 (or $35 if you were charged a Late Fee during the prior six billing periods), the
Minimum Payment is the New Balance. If the New Balance is more than $29 (or $35 if you were charged a Late Fee during the prior six
billing periods), the Minimum Payment is the Past Due amount plus the sum of the amounts due on each Credit Plan as follows:
Regular Purchase, Deferred Interest,
P a y m e n t R e q u i r e d a n d Wa i v e d I n t e r e s t ,

5% of plan balance at end of billing period rounded up to nearest $1 (minimum $5)

Payment Required
Deferred Interest, Equal Payment and

Purchase amount divided by number of months in promotional period rounded up to nearest

Wa i v e d I n t e r e s t , E q u a l P a y m e n t

$1 (minimum $5)
Purchase amount including calculated interest charges from purchase date through end of

Low APR, Equal Payment

promotional period divided by number of months in promotional period rounded up to
nearest $1 (minimum $5)

Deferred Interest, Low Payment and
Wa i v e d I n t e r e s t , L o w P a y m e n t

1% of plan balance at end of billing period rounded up to nearest $1 (minimum $5)

Budget Payment or Open Charge Budget

Monthly payments of $49, $99, $149, $199 or $299, as specified in offer based on

Payment

transaction amount

Open Charge (except Open Charge Budget
Payment)

Dependent upon above for corresponding Credit Plan
If your balance increases during the Open Charge Period, your Minimum Payment will
increase

How to Contact Us:
Arbitration Claims

Comenity Capital Bank, PO Box 182436, Columbus, OH 43218-2436

Arbitration Rejection

Comenity Capital Bank, PO Box 182422, Columbus, OH 43218-2422

Bankruptcy Notifications

Comenity Capital Bank, Bankruptcy Department, PO Box 183043, Columbus, OH 43218-3043

Billing Errors

Comenity Capital Bank, PO Box 182620, Columbus, OH 43218-2620

Credit Reporting Disputes

Comenity Capital Bank, PO Box 182120, Columbus, OH 43218-2120

Disputed Debts

6550 North Loop 1604 East, Suite 101, San Antonio, TX 78247-5004

General

Credit Card Customer Care:
• Carter's: 1-877-563-5767
• T D D / T T Y: 1 - 8 8 8 - 8 1 9 - 1 9 1 8

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

4/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

• c o m e n i t y. n e t / c a r t e r s
• Comenity Capital Bank, PO Box 183003, Columbus, OH 43218-3003
W h e n w r i t i n g , i n c l u d e y o u r n a m e , a d d r e s s , p h o n e n u m b e r a n d A c c o u n t n u m b e r.

Credit Card Agreement
T h i s A g r e e m e n t , i n c l u d i n g t h e S u m m a r y, i s y o u r c o n t r a c t w i t h u s . R e a d i t a n d k e e p i t .
A c c e p t a n c e : Yo u a c c e p t t h i s A g r e e m e n t i f y o u u s e t h e A c c o u n t o r y o u d o n o t c a n c e l y o u r A c c o u n t w i t h i n 3 0 d a y s a f t e r d e l i v e r y o f t h e
A g r e e m e n t . Yo u r s i g n a t u r e o n a n y a p p l i c a t i o n o r s o l i c i t a t i o n f o r t h i s A c c o u n t o r o t h e r e v i d e n c e o f i n d e b t e d n e s s o n y o u r A c c o u n t i s y o u r
signature on this Agreement.
A r b i t r a t i o n : T h i s A g r e e m e n t i n c l u d e s a n A r b i t r a t i o n P r o v i s i o n w i t h c l a s s a c t i o n a n d j u r y t r i a l w a i v e r s . Yo u c a n r e j e c t t h e A r b i t r a t i o n
Provision. If you do not, it will be part of this Agreement.
Changes: The rates, fees and terms of this Agreement may change and we may add or delete any term. We will give you advance
n o t i c e a n d a r i g h t t o r e j e c t , i f r e q u i r e d b y l a w.

Definitions
Account: the credit card account with us under this Agreement.
Authorized User: any person you allow to use your Account.
Card: one or more cards or access devices, including your Account number or virtual card, we issue to you, or someone you authorize,
to get credit under this Agreement.
Cash Advance: if applicable, the use of your Account to:
g e t c a s h f r o m a n AT M , f i n a n c i a l i n s t i t u t i o n o r o t h e r l o c a t i o n ;

b u y l o t t e r y t i c k e t s , m o n e y o r d e r s , f o r e i g n c u r r e n c y, g i f t c a r d s o r s i m i l a r i t e m s ;

get cash or pay someone using a check we offer for that purpose;

make any other transaction the merchant codes as a cash advance, money transfer or gambling.
https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

5/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Balance transfers are Cash Advances unless we tell you otherwise.
Credit Plan: each balance subject to different financing terms, such as regular purchases, Cash Advances, and promotional plans.
Margin: the amount added to the Prime Rate to determine a variable APR.
P r i m e R a t e : t h e U . S . P r i m e R a t e i n t h e M o n e y R a t e s s e c t i o n o f T h e Wa l l S t r e e t J o u r n a l o n t h e l a s t b u s i n e s s d a y o f t h e c a l e n d a r m o n t h .
We, us or our: the issuer of your Card and its successors and assignees.
Yo u , y o u r o r y o u r s : e a c h p e r s o n w h o s u b m i t s a n a p p l i c a t i o n o r s o l i c i t a t i o n f o r a n A c c o u n t a n d a n y o t h e r p e r s o n c o n t r a c t u a l l y l i a b l e
under this Agreement.

U s i n g Yo u r A c c o u n t
Yo u a g r e e t o u s e y o u r A c c o u n t i n a c c o r d a n c e w i t h t h i s A g r e e m e n t . Yo u a g r e e t o p a y u s f o r a l l a m o u n t s d u e o n
Yo u r A g r e e m e n t

y o u r A c c o u n t , i n c l u d i n g c h a r g e s m a d e b y A u t h o r i z e d U s e r s . Yo u a g r e e n o t t o u s e y o u r A c c o u n t f o r i l l e g a l
transactions.

Use of Account

Authorized Users

Joint Accounts

Credit Authorizations

Credit Limit

Yo u m a y u s e y o u r A c c o u n t t o m a k e p u r c h a s e s a n y w h e r e t h e C a r d i s a c c e p t e d . I f y o u r C a r d h a s t h e l o g o o f o n e
of our network providers (e.g., Visa and Mastercard), you may use your Account to make Cash Advances.
Yo u m a y r e q u e s t C a r d s f o r A u t h o r i z e d U s e r s . Yo u m u s t n o t i f y u s i f y o u w i s h t o c a n c e l t h e a u t h o r i t y o f a n
Authorized User to use your Account.
If this is a joint Account, each of you agrees to be individually and jointly liable for the entire amount owed. Any
notice we send to either of you will serve as notice to both of you.
We may decline to authorize a transaction for any reason. We will not be liable to you if we do or if anyone
refuses any use of your Card.
We will tell you your credit limit or limits. Keep your balance below your credit limit or limits. If you do not, you
must still pay us. We may change your credit limit or limits at any time, without notice.

Promotional Credit

We may offer special financing terms, such as deferred interest, waived interest, low APR or equal payment

Plans

options. The Credit Plan or Plans will be subject to the terms of the offer and this Agreement.
Applications (apps) on electronic devices (such as mobile wallets) can store your Card and be used to get credit

Electronic Access

under this Agreement. Such transactions are covered by this Agreement. Apps may have separate terms of use.
We are not responsible for any consequences from your violation of those terms.

APRs and Interest Based on APRs

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

6/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Review your Summary for the APRs that apply to your Account
We add the applicable Margin specified in the Rate Information chart on the Summary to the Prime Rate to
d e t e r m i n e Va r i a b l e A P R s . Va r i a b l e A P R s i n c r e a s e o r d e c r e a s e w h e n t h e P r i m e R a t e c h a n g e s b u t w i l l n o t e x c e e d
Va r i a b l e A P R s

any Maximum APR specified in the Rate Information chart.
Any APR change will take effect on the first day of the billing period that begins after the Prime Rate changes.
Increased APRs will increase your interest charges and may increase your Minimum Payment.
We calculate interest for each Credit Plan each day by applying the applicable daily periodic rate to the daily
balance. The daily periodic rate is the APR for the Credit Plan divided by 365.
We start with the beginning balance each day (including unpaid interest and fees).
We add new transactions and fees to the applicable Credit Plan. We add transaction fees to the same Credit
Plan as the transaction. We add all other fees to the regular purchase Credit Plan.

Daily Balance Method We subtract new credits and payments from the applicable Credit Plan and make other adjustments to get the
(including current

partial daily balance.

transactions)

We multiply the partial daily balance by the daily periodic rate to get the daily interest.
We add the daily interest to the partial daily balance to get the daily balance. This results in daily compounding
of interest.
We add all the daily interest to get the total interest for the Credit Plan for the billing period. For a Deferred
Interest Credit Plan, this interest is deferred.
We round interest to the nearest cent.

Interest

Charging Interest: Interest begins on a transaction, fee or interest from the day added to the daily balance until
paid in full.
H o w t o Av o i d P a y i n g I n t e r e s t o n R e g u l a r P u r c h a s e s ( G r a c e P e r i o d ) : I f y o u d i d n o t h a v e a P r e v i o u s B a l a n c e ,
or if you paid the New Balance on your previous statement by the Due Date on that statement, we will not
charge interest on new regular purchases, or any portion thereof, paid by the Due Date on your current
statement. If you have promotional Credit Plans and/or balance transfers, we may exclude some of those
b a l a n c e s f r o m t h e a m o u n t y o u h a v e t o p a y i n a b i l l i n g p e r i o d t o k e e p y o u r G r a c e P e r i o d . H o w e v e r, y o u m u s t p a y
(i) any required minimum payment on such balances, (ii) the full amount of any Cash Advances and (iii) the full
amount of any promotional Credit Plan that expires in that billing period.
Yo u C o u l d L o s e Yo u r G r a c e P e r i o d : I f y o u d o n o t p a y y o u r N e w B a l a n c e i n f u l l e a c h b i l l i n g p e r i o d , t h e n ,
depending on how we apply your payment, you may not get a Grace Period on new regular purchases. Once you
lose your Grace Period, you can get it back by paying the New Balance (less any promotional Credit Plans and/or
balance transfers as described above plus any interest charged up to the date the payment posts) in full for two
b i l l i n g p e r i o d s i n a r o w.

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

7/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Wa i v e d I n t e r e s t C r e d i t P l a n : W e d o n o t i m p o s e i n t e r e s t o n p l a n b a l a n c e s d u r i n g t h e p r o m o t i o n a l p e r i o d . A f t e r
the promotional period, any remaining balance is added to the regular purchase balance and is subject to interest
at the then-current rate for regular purchases.
Deferred Interest Credit Plan: Interest accrues on plan balances from the transaction date. We do not impose
that interest if you pay the balance in full by the end of the promotional period. After the promotional period, any
remaining balance and interest from the transaction date is added to the regular purchase balance and is subject
to interest at the then-current rate for regular purchases.

Payments
We credit payments in accordance with the terms on your statement. Review your statement for details.
Payment Instructions

Pay in U.S. dollars, in funds on deposit in the U.S. If you don’t, we may refuse your payment or charge you our
costs to collect the funds.

How We Apply
Payments

We apply payments up to the Minimum Payment at our discretion, which may result in balances at lower APRs
being paid first and higher interest charges. Payments over the Minimum Payment will be applied in accordance
w i t h l a w.

Other Information
Yo u a r e i n d e f a u l t i f :
• you fail to comply with this Agreement or any other agreement with us or an affiliate;
• a bankruptcy or other insolvency proceeding is filed by or against you;
Default

• we reasonably believe you are unable or unwilling to repay us;
• you die or are legally incompetent or incapacitated;
• you give us misleading, false, incomplete or incorrect information or fail to give us any information we deem
n e c e s s a r y.
If you are in default, we may declare the entire balance immediately due and payable without notice.

Collection Costs

Privacy Policy
Credit Reporting

I f w e u s e a n a t t o r n e y t o c o l l e c t y o u r A c c o u n t , w e m a y c h a r g e y o u o u r c o s t s i f a n d a s p e r m i t t e d b y l a w. T h e s e
may include reasonable attorneys’ fees and court costs.
Yo u a u t h o r i z e u s t o s h a r e i n f o r m a t i o n a b o u t y o u a n d y o u r A c c o u n t a s p e r m i t t e d b y l a w. R e v i e w o u r P r i v a c y
Statement for details about our information sharing practices.
We may check your credit, employment and income records in connection with an application, update, renewal or
e x t e n s i o n o f c r e d i t o n y o u r A c c o u n t ( i n c l u d i n g c o l l e c t i o n s a n d d i s p u t e i n v e s t i g a t i o n s ) . Yo u c o n s e n t t o o u r
obtaining such records by submitting an application or solicitation. Upon request, we will tell you the name and
address of any credit reporting agency that furnished a report on you. We may report Account status and

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

8/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

payment history to credit reporting agencies, other creditors and the company whose name or brand appears on
your Card.
Notify us immediately at the General mailing address or phone number in the How to Contact Us section of the
Unauthorized Use

Summary and assist us in our investigation if your Card is lost or stolen or you believe someone is using your
Card without your permission.

C l o s i n g Yo u r A c c o u n t

Yo u m a y c l o s e y o u r A c c o u n t a t a n y t i m e . Yo u r e m a i n r e s p o n s i b l e f o r a n y a m o u n t o w e d u n d e r t h i s A g r e e m e n t . W e
may close, suspend or not renew your Account at any time, for any reason, without notice.
If applicable, transactions in foreign currency are converted to U.S. dollars by our network providers (e.g., Visa
a n d M a s t e r c a r d ) u s i n g t h e i r p r o c e d u r e s i n e f f e c t w h e n t h e t r a n s a c t i o n i s p r o c e s s e d . C u r r e n t l y, t h e y u s e a
government-mandated or wholesale rate. These procedures may change without notice.

F o r e i g n Tr a n s a c t i o n s

The conversion rate you get may differ from the rate on the transaction or post date and from the rate our
n e t w o r k p r o v i d e r g e t s . A t h i r d p a r t y m a y c o n v e r t a t r a n s a c t i o n i n t o U . S . d o l l a r s o r a n o t h e r c u r r e n c y, u s i n g a r a t e
t h e y s e l e c t , b e f o r e s e n d i n g i t t o o u r n e t w o r k p r o v i d e r.
F o r a n y t r a n s a c t i o n m a d e o r p r o c e s s e d o u t s i d e t h e U . S . o r i n a f o r e i g n c u r r e n c y, w e c h a r g e a f e e i n t h e a m o u n t
o n t h e S u m m a r y.

Conformance with
Law; Severability
N o Wa i v e r
Assignment

I f a n y p a r t o f t h i s A g r e e m e n t c o n f l i c t s w i t h a p p l i c a b l e l a w, t h a t p r o v i s i o n w i l l b e c o n s i d e r e d m o d i f i e d t o c o n f o r m
t o a p p l i c a b l e l a w. I f a n y p a r t o f t h i s A g r e e m e n t i s i n v a l i d , t h e r e s t s h a l l r e m a i n i n e f f e c t , e x c e p t a s o t h e r w i s e
noted in the Arbitration Provision.
We will not lose our rights under this Agreement because we delay or do not enforce them.
W e m a y a s s i g n a n y o r a l l o f o u r r i g h t s a n d o b l i g a t i o n s u n d e r t h i s A g r e e m e n t t o a t h i r d p a r t y. Yo u m a y n o t a s s i g n
any of your rights or obligations under this Agreement.

N e w J e r s e y R e s i d e n t s A l l p r o v i s i o n s o f t h i s a g r e e m e n t a r e v a l i d , e n f o r c e a b l e a n d a p p l i c a b l e i n N e w J e r s e y.

Communications with Us
M o n i t o r i n g a n d R e c o r d i n g : Yo u r c o m m u n i c a t i o n s w i t h u s a n d o u r a f f i l i a t e s , s e r v i c e r s , a g e n t s a n d c o n t r a c t o r s m a y b e m o n i t o r e d o r
recorded. Inform Authorized Users and persons acting on your behalf or making payments on this Account of this provision.
C o m m u n i c a t i o n A u t h o r i z a t i o n : Yo u g i v e d i r e c t c o n s e n t t o u s a n d o u r a f f i l i a t e s , s e r v i c e r s , a g e n t s a n d c o n t r a c t o r s , i n c l u d i n g c o l l e c t i o n
agents, to communicate with you in any way to service or collect your Account, such as calling, texting or email via:
any phone number you give us even if the number is or converts to a mobile phone number;

any other number you provide, use to contact us or may utilize;

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

9/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

a n y o t h e r d e v i c e o r s e r v i c e f o r w h i c h y o u m a y b e c h a r g e d f o r t h e c a l l , i n c l u d i n g Vo i c e O v e r I n t e r n e t P r o t o c o l ( V O I P ) ; a n d

any email address you provide to us or any other person or company that provides any services in connection with this Agreement.

S u b j e c t t o a n y r e s t r i c t i o n s o f a p p l i c a b l e l a w, w e m a y c o n t a c t y o u u s i n g a u t o m a t e d t e l e p h o n e d i a l i n g s y s t e m s a n d / o r p r e - r e c o r d e d o r
artificial voice messages and any other form of communication.
Communications may result in additional mobile, text message, data or other charges.
Yo u m a y c h a n g e y o u r p r e f e r e n c e s b y c a l l i n g t h e G e n e r a l p h o n e n u m b e r o n t h e S u m m a r y.
Disputed Debts: All written communications about disputed amounts, including any check or payment instrument marked “payment in full”
o r s i m i l a r, m u s t b e s e n t t o t h e a d d r e s s f o r D i s p u t e d D e b t s o n t h e S u m m a r y. W e m a y a c c e p t p a y m e n t s s e n t t o a n y o t h e r a d d r e s s w i t h o u t
losing our rights.
Bankruptcy Notifications: Send bankruptcy notices and related correspondence to the address for Bankruptcy Notifications on the
S u m m a r y.
C h a n g e s : Yo u a g r e e t o n o t i f y u s a t t h e G e n e r a l p h o n e n u m b e r o r a d d r e s s o n t h e S u m m a r y o r b y u p d a t i n g y o u r i n f o r m a t i o n o n A c c o u n t
C e n t e r i m m e d i a t e l y u p o n c h a n g i n g y o u r n a m e , e m a i l a d d r e s s , m a i l i n g a d d r e s s o r p h o n e n u m b e r.
C o m m u n i c a t i o n i n L a n g u a g e s O t h e r T h a n E n g l i s h : Yo u a g r e e t o r e c e i v e a l l A c c o u n t c o m m u n i c a t i o n s i n E n g l i s h . W e m a y, a t o u r o p t i o n ,
c o m m u n i c a t e w i t h y o u i n o t h e r l a n g u a g e s a s a c o u r t e s y. W e m a y s t o p c o m m u n i c a t i n g w i t h y o u i n n o n - E n g l i s h l a n g u a g e s a t a n y t i m e .
While we try to ensure accuracy of translations, we are not responsible for any inaccuracies in translation or misunderstandings due to
differences in usage or dialect. In the event of inconsistency between the English version and the translation, the English version will
control.

Notice for Active Duty Military Members and Their Dependents
The following disclosures apply to you if, in connection with opening your Account, we determine you are a “covered borrower” as
defined in the Military Lending Act, which includes eligible active duty members of the Armed Forces and their dependents:
T h e p r o v i s i o n o f t h i s A g r e e m e n t t i t l e d “ A r b i t r a t i o n a n d J u r y Tr i a l Wa i v e r ” d o e s n o t a p p l y t o y o u .

Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The
https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

10/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified credit transactions or accounts); and any participation fee
charged (other than certain participation fees for a credit card account).

To h e a r i n f o r m a t i o n a b o u t t h e s e p r o t e c t i o n s a n d a d e s c r i p t i o n o f y o u r p a y m e n t o b l i g a t i o n s , c a l l t o l l f r e e a t 1 - 8 6 6 - 2 3 0 - 0 4 1 8 ( o r a t
the General TDD/TTY number on the Summary).

A r b i t r a t i o n a n d J u r y Tr i a l Wa i v e r
P l e a s e r e v i e w t h e f o l l o w i n g i m p o r t a n t p r o v i s i o n s c a r e f u l l y. P a y s p e c i a l a t t e n t i o n t o P a r a g r a p h s :
• A : J u r y Tr i a l Wa i v e r ;
Key Provisions

• C: Arbitration Provision;
• C.1: Right to Reject;
• C . 6 : C o u r t a n d J u r y Tr i a l s P r o h i b i t e d ; O t h e r L i m i t a t i o n s o n L e g a l R i g h t s ; a n d
• C . 7 : C l a s s A c t i o n Wa i v e r.
To t h e e x t e n t p e r m i t t e d b y l a w, y o u a n d w e w a i v e a n y r i g h t t o t r i a l b y j u r y i n t h e e v e n t o f a l a w s u i t a r i s i n g

A . J u r y Tr i a l Wa i v e r

out of or related to this Agreement. This jury trial waiver shall not affect the Arbitration Provision below
( i n c l u d i n g t h e j u r y t r i a l w a i v e r c o n t a i n e d t h e r e i n ) . Yo u a n d w e e a c h r e p r e s e n t t h a t t h i s w a i v e r i s g i v e n
k n o w i n g l y, w i l l i n g l y a n d v o l u n t a r i l y.
Prior to bringing a lawsuit or initiating an arbitration that asserts a claim arising out of or related to this
A g r e e m e n t ( a s f u r t h e r d e f i n e d b e l o w, “ C l a i m ” ) , t h e p a r t y a s s e r t i n g t h e C l a i m ( “ C l a i m a n t ” ) s h a l l g i v e t h e o t h e r
p a r t y ( “ D e f e n d a n t ” ) w r i t t e n n o t i c e o f t h e C l a i m ( “ C l a i m N o t i c e ” ) a n d a r e a s o n a b l e o p p o r t u n i t y, n o t l e s s t h a n 3 0
days, to resolve the Claim. Any Claim Notice to you shall be sent to the address we have in our records (or any
updated address you subsequently provide to us). Any Claim Notice to us shall be sent by mail to the address

B. Notice and Cure

for Arbitration Claims on the Summary (or any updated address we subsequently provide). Any Claim Notice you
send must provide your name, address and Account number and explain the nature of the Claim and relief
d e m a n d e d . Yo u m a y o n l y s u b m i t a C l a i m N o t i c e o n y o u r o w n b e h a l f a n d n o t o n b e h a l f o f a n y o t h e r p a r t y. N o
t h i r d p a r t y, o t h e r t h a n a l a w y e r y o u h a v e p e r s o n a l l y r e t a i n e d , m a y s u b m i t a C l a i m N o t i c e o n y o u r b e h a l f . T h e
Claimant must reasonably cooperate in providing any information about the Claim that the Defendant reasonably
requests.

C. Arbitration
Provision

R e v i e w t h i s p r o v i s i o n c a r e f u l l y. I f y o u d o n o t r e j e c t i t i n a c c o r d a n c e w i t h P a r a g r a p h C . 1 , R i g h t t o R e j e c t ,
b e l o w, i t w i l l b e p a r t o f t h i s A g r e e m e n t a n d w i l l h a v e a s u b s t a n t i a l i m p a c t o n t h e w a y y o u o r w e w i l l
resolve any Claim you or we have against each other now or in the future.

1. Right to Reject
https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

11/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

If you don’t want this Arbitration Provision (and any prior arbitration agreement between you and us
( “ P r i o r A r b i t r a t i o n A g r e e m e n t ” ) ) t o a p p l y, y o u m a y r e j e c t i t b y m a i l i n g u s a w r i t t e n r e j e c t i o n n o t i c e w h i c h
gives your name and contains a statement that you (both of you, if more than one) reject the Arbitration
Provision of this Agreement. The rejection notice must be sent to us at the address for Arbitration
R e j e c t i o n o n t h e S u m m a r y. A r e j e c t i o n n o t i c e i s o n l y e f f e c t i v e i f i t i s s i g n e d b y y o u ( a l l o f y o u , i f m o r e
than one) and if we receive it within 30 calendar days after the date we first provide you with a credit card
a g r e e m e n t o r w r i t t e n n o t i c e p r o v i d i n g y o u a r i g h t t o r e j e c t t h i s A r b i t r a t i o n P r o v i s i o n . Yo u r r e j e c t i o n o f t h i s
Arbitration Provision will not affect any other provision of this Agreement or your ability to obtain credit.
Solely as used in this Arbitration Provision (and not elsewhere in this Agreement), the terms “we,” “us” and “our”
mean
2. Parties

a. the issuer of your Card named on the Summary and its successors and/or assigns, as well as any parent,
subsidiary or affiliate of theirs and their employees, officers and directors (the “Bank Parties”); and
b. any other person or company that provides any services in connection with this Agreement if you assert a
C l a i m a g a i n s t s u c h o t h e r p e r s o n o r c o m p a n y a t t h e s a m e t i m e y o u a s s e r t a C l a i m a g a i n s t a n y B a n k P a r t y.
“Claim” means any claim, dispute or controversy between you and us that in any way arises from or relates to
this Agreement, the Account, the issuance of any Card, any rewards program and/or any prior agreement or
account. “Claim” includes disputes arising from actions or omissions prior to the date any Card was issued to
you, including the advertising related to, application for or approval of the Account. “Claim” has the broadest
possible meaning, and includes initial claims, counterclaims, cross-claims and third-party claims. It includes
disputes based on contract, tort, consumer rights, fraud and other intentional torts, constitution, statute,

3. Covered Claims

regulation, ordinance, common law and equity (including any claim for injunctive or declaratory relief). “Claim”
d o e s n o t i n c l u d e d i s p u t e s a b o u t t h e v a l i d i t y, e n f o r c e a b i l i t y, c o v e r a g e o r s c o p e o f t h i s A r b i t r a t i o n P r o v i s i o n o r a n y
part thereof (including, without limitation, the prohibition against class proceedings, private attorney general
proceedings and/or multiple party proceedings described in Paragraph C.7, Prohibitions Against Certain
P r o c e e d i n g s ( C l a s s A c t i o n Wa i v e r ) , P a r a g r a p h C . 1 3 , S e v e r a b i l i t y, a n d / o r t h i s s e n t e n c e ) ; a l l s u c h d i s p u t e s a r e f o r
a c o u r t a n d n o t a n a r b i t r a t o r t o d e c i d e . H o w e v e r, a n y d i s p u t e o r a r g u m e n t t h a t c o n c e r n s t h e v a l i d i t y o r
e n f o r c e a b i l i t y o f t h e A g r e e m e n t a s a w h o l e i s f o r t h e a r b i t r a t o r, n o t a c o u r t , t o d e c i d e .
Arbitration may be elected by any party with respect to any Claim, even if that party has already initiated a

4. Starting an
Arbitration

lawsuit with respect to a different Claim. Arbitration is started by giving a written demand for arbitration to the
o t h e r p a r t y. W e w i l l n o t d e m a n d t o a r b i t r a t e a n i n d i v i d u a l C l a i m t h a t y o u b r i n g a g a i n s t u s i n s m a l l c l a i m s c o u r t o r
y o u r s t a t e ’ s e q u i v a l e n t c o u r t , i f a n y. B u t i f t h a t C l a i m i s t r a n s f e r r e d , r e m o v e d o r a p p e a l e d t o a d i f f e r e n t c o u r t , w e
then have the right to demand arbitration.

5. Administrator

“ A d m i n i s t r a t o r ” m e a n s t h e A m e r i c a n A r b i t r a t i o n A s s o c i a t i o n ( “ A A A ” ) , 1 2 0 B r o a d w a y, 2 1 s t F l o o r, N e w Yo r k , N Y
1 0 2 7 1 , w w w. a d r. o r g ; J A M S , 6 2 0 E i g h t h A v e n u e , 3 4 t h F l o o r, N e w Yo r k , N Y 1 0 0 1 8 , w w w. j a m s a d r. c o m ; o r a n y o t h e r

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

12/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

company selected by mutual agreement of the parties. If both AAA and JAMS cannot or will not serve and the
parties are unable to select an Administrator by mutual consent, the Administrator will be selected by a court.
T h e a r b i t r a t o r w i l l b e a p p o i n t e d b y t h e A d m i n i s t r a t o r i n a c c o r d a n c e w i t h t h e r u l e s o f t h e A d m i n i s t r a t o r. H o w e v e r,
t h e a r b i t r a t o r m u s t b e a r e t i r e d o r f o r m e r j u d g e o r a l a w y e r w i t h a t l e a s t 1 0 y e a r s o f e x p e r i e n c e . Yo u g e t t o
select the Administrator if you give us written notice of your selection with your notice that you are electing to
a r b i t r a t e a n y C l a i m o r w i t h i n 2 0 d a y s a f t e r w e g i v e y o u n o t i c e t h a t w e a r e e l e c t i n g t o a r b i t r a t e a n y C l a i m ( o r, i f
you dispute our right to require arbitration of the Claim, within 20 days after that dispute is finally resolved). If
you do not select the Administrator on time, we may do it. Notwithstanding any language in this Arbitration
P r o v i s i o n t o t h e c o n t r a r y, n o a r b i t r a t i o n m a y b e a d m i n i s t e r e d w i t h o u t t h e c o n s e n t o f a l l p a r t i e s t o t h e a r b i t r a t i o n ,
by any Administrator that has in place a formal or informal policy that is inconsistent with the Class Action
Wa i v e r.
6. Court and Jury
Tr i a l s P r o h i b i t e d ; O t h e r
Limitations on Legal
Rights

If you or we elect to arbitrate a Claim, you will not have the right to pursue that Claim in court or have a
jury decide the Claim. Also, your ability to obtain information from us is more limited in arbitration than in
a lawsuit. Other rights that you would have if you went to court may also not be available in arbitration.
If you or we elect to arbitrate a Claim:
a. neither you nor we may participate in a class action in court or in class-wide arbitration, either as a

7. Prohibition Against
Certain Proceedings
( C l a s s A c t i o n Wa i v e r )

plaintiff, defendant or class member;
b. neither you nor we may act as a private attorney general in court or in arbitration;
c. Claims brought by or against you may not be joined or consolidated with Claims brought by or against
any other person; and
d. the arbitrator shall have no power or authority to conduct a class-wide arbitration, private attorney
general arbitration or multiple-party arbitration.
Any arbitration hearing that you attend must take place at a location reasonably convenient to you. We will pay
any and all fees of the Administrator and/or the arbitrator if applicable law requires us to, if you prevail in the

8. Location and Costs

arbitration or if we must bear such fees in order for this Arbitration Provision to be enforced. If you demand an
arbitration, we will pay your reasonable attorneys’ and experts’ fees if you prevail or if we must bear such fees
in order for this Arbitration Provision to be enforced. Also, we will bear any fees if applicable law requires us to.

9. Governing Law

This Arbitration Provision involves interstate commerce and is governed by the Federal Arbitration Act, 9 U.S.C.
§ § 1 - 1 6 ( “ FA A ” ) , a n d n o t b y a n y s t a t e a r b i t r a t i o n l a w. T h e a r b i t r a t o r m u s t a p p l y a p p l i c a b l e s u b s t a n t i v e l a w
c o n s i s t e n t w i t h t h e FA A a n d a p p l i c a b l e s t a t u t e s o f l i m i t a t i o n s a n d c l a i m s o f p r i v i l e g e r e c o g n i z e d a t l a w. T h e
arbitrator may award any remedy provided by the substantive law that would apply if the action were pending in
court (including, without limitation, punitive damages, which shall be governed by the Constitutional standards

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

13/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

e m p l o y e d b y t h e c o u r t s ) . A t t h e t i m e l y r e q u e s t o f e i t h e r p a r t y, t h e a r b i t r a t o r m u s t p r o v i d e a b r i e f w r i t t e n
explanation of the basis for the award.
I n a d d i t i o n t o t h e p a r t i e s ’ r i g h t s t o o b t a i n d i s c o v e r y p u r s u a n t t o t h e a r b i t r a t i o n r u l e s o f t h e A d m i n i s t r a t o r, e i t h e r
10. Discovery

party may submit a written request to the arbitrator to expand the scope of discovery normally allowable under
t h e a r b i t r a t i o n r u l e s o f t h e A d m i n i s t r a t o r. T h e a r b i t r a t o r s h a l l h a v e d i s c r e t i o n t o g r a n t o r d e n y t h a t r e q u e s t .
Judgment upon the arbitrator ’s award may be entered by any court having jurisdiction. The arbitrator ’s decision is

11 . R e s u l t a n d A p p e a l s

f i n a l a n d b i n d i n g , e x c e p t f o r a n y r i g h t o f a p p e a l p r o v i d e d b y t h e FA A a n d / o r t h e r u l e s o f t h e A d m i n i s t r a t o r. A n y
finding, award or judgment from an arbitration of any Claim shall apply only to that arbitration. No finding, award
or judgment from any other arbitration shall impact the arbitration of any Claim.
This Arbitration Provision shall survive the repayment of all amounts owed under this Agreement, the closing of
t h e A c c o u n t , a n y l e g a l p r o c e e d i n g a n d a n y b a n k r u p t c y t o t h e e x t e n t c o n s i s t e n t w i t h a p p l i c a b l e b a n k r u p t c y l a w. I n

12. Interpretation

the event of a conflict or inconsistency between this Arbitration Provision and the applicable arbitration rules or
the other provisions of this Agreement, this Arbitration Provision shall govern. This Arbitration Provision replaces
any Prior Arbitration Agreement.
If any portion of this Arbitration Provision is held to be invalid or unenforceable, the remaining portions shall
nevertheless remain in force, subject to two exceptions. First, if a determination is made that the Class Action
Wa i v e r i s u n e n f o r c e a b l e , a n d t h a t d e t e r m i n a t i o n i s n o t r e v e r s e d o n a p p e a l , t h e n t h e A r b i t r a t i o n P r o v i s i o n s h a l l b e

13. Severability

v o i d i n i t s e n t i r e t y. S e c o n d , i f a c o u r t d e t e r m i n e s t h a t a p u b l i c i n j u n c t i v e r e l i e f C l a i m m a y p r o c e e d
n o t w i t h s t a n d i n g t h e C l a s s A c t i o n Wa i v e r, a n d t h a t d e t e r m i n a t i o n i s n o t r e v e r s e d o n a p p e a l , t h e n t h e p u b l i c
injunctive relief Claim will be decided by a court, any individual Claims will be arbitrated, and the parties will ask
the court to stay the public injunctive relief Claim until the other Claims have been finally concluded.
The arbitrator shall award you at least $5,100 (plus any fees and costs to which you are entitled) if:
a. you submit a Claim Notice in accordance with Paragraph B, Notice and Cure, above on your own behalf (and

14. Special Payment

not on behalf of any other party);
b. we refuse to provide you with the relief you request before an arbitrator is appointed; and
c. an arbitrator subsequently determines that you were entitled to such relief (or greater relief).

Yo u r B i l l i n g R i g h t s : K e e p T h i s D o c u m e n t F o r F u t u r e U s e
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
W h a t To D o I f Yo u F i n d A M i s t a k e O n Yo u r S t a t e m e n t
If you think there is an error on your statement, write to us at the address for Billing Errors on the Summary

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

14/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

I n y o u r l e t t e r, g i v e u s t h e f o l l o w i n g i n f o r m a t i o n :
A c c o u n t i n f o r m a t i o n : Yo u r n a m e a n d a c c o u n t n u m b e r.

D o l l a r a m o u n t : T h e d o l l a r a m o u n t o f t h e s u s p e c t e d e r r o r.

Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.

Yo u m u s t c o n t a c t u s :
Within 60 days after the error appeared on your statement.

At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.

Yo u m u s t n o t i f y u s o f a n y p o t e n t i a l e r r o r s i n w r i t i n g . Yo u m a y c a l l u s , b u t i f y o u d o w e a r e n o t r e q u i r e d t o i n v e s t i g a t e a n y p o t e n t i a l
errors and you may have to pay the amount in question.
W h a t W i l l H a p p e n A f t e r W e R e c e i v e Yo u r L e t t e r
W h e n w e r e c e i v e y o u r l e t t e r, w e m u s t d o t w o t h i n g s :
1 . W i t h i n 3 0 d a y s o f r e c e i v i n g y o u r l e t t e r, w e m u s t t e l l y o u t h a t w e r e c e i v e d y o u r l e t t e r. W e w i l l a l s o t e l l y o u i f w e h a v e a l r e a d y
c o r r e c t e d t h e e r r o r.
2 . W i t h i n 9 0 d a y s o f r e c e i v i n g y o u r l e t t e r, w e m u s t e i t h e r c o r r e c t t h e e r r o r o r e x p l a i n t o y o u w h y w e b e l i e v e t h e b i l l i s c o r r e c t .
While we investigate whether or not there has been an error:
We cannot try to collect the amount in question, or report you as delinquent on that amount.

The charge in question may remain on your statement, and we may continue to charge you interest on that amount.

While you do not have to pay the amount in question, you are responsible for the remainder of your balance.

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

15/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
I f w e m a d e a m i s t a k e : Yo u w i l l n o t h a v e t o p a y t h e a m o u n t i n q u e s t i o n o r a n y i n t e r e s t o r o t h e r f e e s r e l a t e d t o t h a t a m o u n t .

I f w e d o n o t b e l i e v e t h e r e w a s a m i s t a k e : Yo u w i l l h a v e t o p a y t h e a m o u n t i n q u e s t i o n , a l o n g w i t h a p p l i c a b l e i n t e r e s t a n d f e e s . W e
will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do
not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
p a y. I f y o u d o s o , w e c a n n o t r e p o r t y o u a s d e l i n q u e n t w i t h o u t a l s o r e p o r t i n g t h a t y o u a r e q u e s t i o n i n g y o u r b i l l . W e m u s t t e l l y o u t h e
name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Yo u r R i g h t s I f Yo u A r e D i s s a t i s f i e d W i t h Yo u r C r e d i t C a r d P u r c h a s e s
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To u s e t h i s r i g h t , a l l o f t h e f o l l o w i n g m u s t b e t r u e :
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to
you, or if we own the company that sold you the goods or services.)
2 . Yo u m u s t h a v e u s e d y o u r c r e d i t c a r d f o r t h e p u r c h a s e . P u r c h a s e s m a d e w i t h c a s h a d v a n c e s f r o m a n AT M o r w i t h a c h e c k t h a t
a c c e s s e s y o u r c r e d i t c a r d a c c o u n t d o n o t q u a l i f y.
3 . Yo u m u s t n o t y e t h a v e f u l l y p a i d f o r t h e p u r c h a s e .
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the address for Billing Errors
o n t h e S u m m a r y.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you
o u r d e c i s i o n . A t t h a t p o i n t , i f w e t h i n k y o u o w e a n a m o u n t a n d y o u d o n o t p a y, w e m a y r e p o r t y o u a s d e l i n q u e n t .
https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

16/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Pricing Addendum
Interest Rates and
Interest Charges

22.74%

Annual Percentage Rate

Prime Rate plus

(APR) for Purchases

This APR will vary with the market based on the Prime Rate.

Yo u r d u e d a t e i s a t l e a s t 2 5 d a y s a f t e r t h e c l o s e o f e a c h b i l l i n g p e r i o d . W e w i l l n o t c h a r g e
H o w t o Av o i d P a y i n g

you interest on purchases if you pay your entire balance by the due date each month. If

Interest

you do not, you will not get a grace period on purchases again until you pay the entire
b a l a n c e b y t h e d u e d a t e f o r t w o b i l l i n g p e r i o d s i n a r o w.

Minimum Interest
Charge

If you are charged interest, the charge will be no less than $2 per credit plan.

Fees
Annual Fee

Penalty Fees
• Late Payment
• Returned Payment

Balance Computation
Method

None

Up to $40
Up to $40

We use a method called "daily balance (including current transactions)."

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

17/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Please review the Important Information and
Te r m s a b o u t o p e n i n g a n a c c o u n t p r i o r t o
submitting your application.
To apply you must:
Be at the age of majority in your state or territory;
Have a valid government-issued photo ID;
Have a valid government issued tax identification number, such as a Social Security number (SSN) or Social Insurance
Number (SIN);
Have a street, rural route, or APO/FPO mailing address. We do not accept PO Box mailing addresses.
You agree that this application and any information you submit to Comenity Capital Bank may be shared with and retained by
Carter's®.

Important Information about Opening an Account
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions
to obtain, verify and record information that identifies each person who opens an account. What this means for you: When you open
an account, we will ask for your name, address, date of birth or other information that will allow us to identify you. We may also ask
for your driver's license or other identifying documents.
California Residents:
If you are married, you may apply for a separate account.
Ohio Residents:
The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy customers, and
that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights
Commission administers compliance with this law.
New York, Rhode Island and Vermont Residents:
We may order credit reports in connection with processing applications/solicitations and any update, renewal or extension of
credit. Upon request, we will tell you the name and address of any consumer-reporting agency that furnished a report on you.
You consent to the obtaining of such reports by signing or otherwise submitting an application or solicitation.
Wisconsin Residents:
https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

18/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

No provision of any marital property agreement, unilateral statement under Section 766.59 of the Wisconsin statutes or court
order under Section 766.70 adversely affects the interest of the creditor, Comenity Capital Bank, unless the Bank, prior to the
time credit is granted is furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse
provision when the obligation to the Bank is incurred.
If you have been preapproved, see below for details of your offer.

You can choose to stop receiving “prescreened” offers of credit from this and other companies by calling
toll-free 1-888-567-8688. See Prescreen & Opt-out Notice below for more information about prescreened
offers.
PRESCREEN & OPT-OUT NOTICEThis “prescreened” offer of credit is based on information in your credit report indicating
that you meet certain criteria. This offer is not guaranteed if you do not meet our criteria. If you do not want to receive
prescreened offers of credit from this and other companies, call the consumer reporting agencies toll-free, 1-888-567-8688;
or write: Experian, PO Box 919, Allen, TX 75013; TransUnion, PO Box 505, Woodlyn, PA 19094; Equifax, PO Box 740123,
Atlanta, GA 30374; SageStream, LLC, PO Box 503793, San Diego, CA 92150; Innovis, PO Box 495, Pittsburgh, PA 152300495.
Important Information for Covered Borrowers under the Military Lending Act
For New Accounts- Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs
associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account)
To hear this Military Lending Act disclosure and the payment obligations thereunder, call toll free at 1-866-230-0418; (TDD/TTY: 1-888819-1918).
I am applying to Comenity Capital Bank for, and hereby request, a Carter's® Credit Card for personal, family or household use. I hereby
authorize Comenity Capital Bank to investigate my credit record. The information that I have supplied is true and correct. I agree that a
credit report may be obtained for any lawful purpose, including in connection with the processing of an application, or subsequently with
the update, renewal or extension of credit. Upon my request, I will be informed of whether or not a consumer credit report was ordered,
and if it was, I will be given the name and address of the consumer-reporting agency that furnished the report. I agree to be bound by
the terms of the Carter's® Credit Card account agreement. I acknowledge that I will receive a Carter's® Credit Card account
agreement upon approval. I also acknowledge that there is no agreement between Comenity Capital Bank and me until Comenity
Capital Bank approves my credit application and accepts the Carter's® Credit Card account agreement at its office in Utah and that the
Carter's® Credit Card account agreement is deemed to be made in Utah. Credit Card are issued and credit is extended by Comenity
Capital Bank, Salt Lake City, Utah.
https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

19/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Please note:
By submitting this credit application, you are agreeing to the following with respect to certain consumer information about
you.
You hereby authorize Comenity Capital Bank ("us" or "we") to furnish our decision to issue an account to you to Carter's® Credit Card.
You hereby authorize us to furnish, if your application is approved, information concerning your account to credit bureaus, other
creditors and Carter's® Credit Card.
Check your information before submitting. We cannot process any submission without a complete and accurate name, address, date of
birth and social security number. By submitting this Application you are acknowledging having read and understood the Important Rate,
Fee and Other Cost Information and, if approved, agreeing to be bound by them.

Financial Privacy Policy
http://www.comenity.net/carters/images/privacy.pdf (PDF)
You need Adobe Reader to view PDF files. You may download it for free from Adobe.

FACTS

WHAT DOES COMENITY DO WITH YOUR PERSONAL
INFORMATION?

Financial companies choose how they share your personal information. Federal

Why?

law gives consumers the right to limit some but not all sharing. Federal law also
requires us to tell you how we collect, share, and protect your personal
information. Please read this notice carefully to understand what we do.

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

20/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

What?

The types of personal information we collect and share depend on the product or
service you have with us. This information can include:
Social Security number and income
Account balances and transaction history
Credit history and credit scores

All financial companies need to share customers' personal information to run their

How?

e v e r y d a y b u s i n e s s . I n t h e s e c t i o n b e l o w, w e l i s t t h e r e a s o n s f i n a n c i a l c o m p a n i e s
can share their customers' personal information; the reasons Comenity chooses to
share; and whether you can limit this sharing.

Does
Comenity
share?

Can you limit
this sharing?

Ye s

No

For our marketing purposes- such as to offer our products and services
to you

Ye s

No

For joint marketing with other financial companies

Ye s

No

Ye s

No

Reasons we can share your personal information

For our everyday business purposes-such as to process your
transactions, maintain your account (s), respond to court orders and
legal investigations, or report to credit bureaus

For our affiliates' everyday business purposes-information about your
transactions and experiences
https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

21/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

For our affiliates' everyday business purposes-information about your

Ye s

Ye s

For our affiliates to market to you

Ye s

Ye s

For nonaffiliates to market to you

Ye s

Ye s

creditworthiness

Our menu will prompt you through your choices:
C o m e n i t y B a n k c u s t o m e r s : C a l l 1 - 8 0 0 - 2 2 0 - 11 8 1 ( T D D / T T Y 1 - 8 0 0 - 6 9 5 - 1 7 8 8 )
Comenity Capital Bank customers: Call 1-877-287-5012 (TDD/TTY 1-888-8191918)

To limit our
sharing

Please note:
I f y o u a r e a n e w c u s t o m e r, w e c a n b e g i n s h a r i n g y o u r i n f o r m a t i o n 3 0 d a y s f r o m
t h e d a t e w e s e n t t h i s n o t i c e . W h e n y o u a r e n o l o n g e r o u r c u s t o m e r, w e c o n t i n u e
to share your information as described in this notice.
H o w e v e r, y o u c a n c o n t a c t u s a t a n y t i m e t o l i m i t o u r s h a r i n g .

Questions?

Call 1-866-423-1097

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

22/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Who we are

Who is providing this

This privacy notice is provided by the Comenity family of companies, including

notice?

Comenity Bank and Comenity Capital Bank.

What we do

How does Comenity

To p r o t e c t y o u r p e r s o n a l i n f o r m a t i o n f r o m u n a u t h o r i z e d a c c e s s a n d u s e , w e u s e

protect my personal
information?

s e c u r i t y m e a s u r e s t h a t c o m p l y w i t h f e d e r a l l a w. T h e s e m e a s u r e s i n c l u d e c o m p u t e r
safeguards and secured files and buildings.

We collect your personal information, for example, when you
open an account or provide account information
give us your income information

How does Comenity
collect my personal

use your credit or show your driver's license

information?

We also collect your personal information from others, such as credit bureaus,
affiliates, or other companies.

Why can't I limit all
sharing?

Federal law gives you the right to limit only
sharing for affiliates' everyday business purposes-information about your
creditworthiness

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

23/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

affiliates from using your information to market to you
sharing for nonaffiliates to market to you
State laws and individual companies may give you additional rights to limit
s h a r i n g . S e e b e l o w f o r m o r e o n y o u r r i g h t s u n d e r s t a t e l a w.

What happens when I
limit sharing for an
account I hold jointly

Yo u r c h o i c e s w i l l a p p l y t o e v e r y o n e o n y o u r a c c o u n t .

with someone else?

Definitions

Companies related by common ownership or control. They can be financial and
nonfinancial companies.
Affiliates

Our affiliates include companies with a Comenity name; financial companies
such as Comenity Capital Bank and Comenity Bank, other Comenity entities;
nonfinancial companies such as Epsilon, Alliance Data, and LoyaltyOne.

Nonaffiliates

Companies not related by common ownership or control. They can be financial
and nonfinancial companies.

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

24/25

6/7/2021

Carter's® Credit Card - Legal Docs - Credit Card Agreement

Nonaffiliates we share with can include financial service providers, retailers,
direct marketers, publishers and nonprofit organizations.

A formal agreement between nonaffiliated financial companies that together
Joint marketing

market financial products or services to you.
Our joint marketing partners may include lenders and insurance companies.

Other important information

W e a l s o w i l l c o m p l y w i t h m o r e r e s t r i c t i v e s t a t e l a w s t o t h e e x t e n t t h a t t h e y a p p l y ; f o r e x a m p l e , Ve r m o n t o r
California.

https://d.comenity.net/carters/pub/requestCca/requestCca.xhtml

25/25

